No. 20-1120
IN THE

Supreme Court of tfje ® ntteb £§> tateg
MELISSA BELGAU, ET AL.,

Petitioners,
v.

JAYINSLEE, IN HIS OFFICIAL CAPACITY AS
GOVERNOR OF THE STATE OF WASHINGTON, ET AL.,
Respondents.

On Petition for Writ of Certiorari to the
United States Court of Appeals for the Ninth Circuit

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), as a
member of the Bar of this Court , I certify that the Brief in
Opposition of Respondent Washington Federation of State
Employees, AFSCME Council 28 in the above entitled case
complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in Century Schoolbook 12 point
type for the text and 10 point for the footnotes, and that the
brief complies with the word limit specified by Rule
33.1(g)(ii) because it contains 6375 words, excluding the
parts that are exempted by Supreme Court Rule 33.1(d), as
needed .

Dated: May 12, 2021
Matthew J. Murray
ALTSHULER BERZON LLP'
177 Post Street, Suite 300
San Francisco, CA 94108
(415) 421- 7151
mmurray@altber .com
Counsel for Respondent Washington
Federation of State Employees, AFSCME
Council 28

